OIG Investigative Reports, Former Barton County Basketball Coach Charged in Mail Fraud Investigation
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE
December 14, 2004
U.S. Department of Justice
United States Attorney
District of Kansas
Eric Melgren, U.S. Attorney
1200 Epic Center
Wichita, Kansas 67202
Contact: Jim Cross
Tel: (316)269-6481
Fax: (316)269-6484
Former Barton County Basketball Coach Charged in Mail Fraud Investigation with Providing Money and Academic Credits to Players
WICHITA, KAN. — United States Attorney Eric Melgren announced today that RYAN
WOLF, 32, Martinsville, Ind., has been charged in 36 counts of a federal grand jury
indictment alleging he used his position as basketball coach at Barton County Community
College in Great Bend, Kan., to fraudulently obtain federal educational funds for his athletes
and himself.
The indictment charges that from May 1998 through June 2003 Wolf used his junior
college coaching job to illegally provide financial assistance and false academic credentials
to athletes including Ricky Clemons, Jason Carter, Carlton Baker, Eric Washington, Justin
Rose and Randy Pulley. He also is accused of providing false information to officials at Butler
County Community College, the University of Missouri, San Jose State University and
Brigham Young University by creating false records concerning the academic eligibility of
student athletes.
According to indictment:
Wolf recruited athletes to play basketball for the junior college and then used his
faculty position to obtain grants that they were not qualified to receive, and campus
jobs that paid them for work not performed.
Wolf misappropriated more than $120,000. Some of that money came from Pell grants,
federal work study funds, campus work study programs and federally guaranteed
student loans. The indictment seeks the return of those funds.
Wolf committed bank fraud when he presented Pell grant checks bearing forged player
signatures to financial institutions.
Wolf defrauded Barton County Community College by providing false information
that athletes had received their GED. In one incident, Wolf allegedly hired an
individual to impersonate athlete Carlton Baker and take a GED test in Indianapolis,
Indiana, on Baker's behalf.
Wolf defrauded Brigham Young University by providing false certifications that an
athlete had been supervised by a Barton County Community College faculty member
assigned as a proctor to prevent cheating when the athlete took tests for credit in
correspondence courses. The faculty member who signed the report at Wolf's request
did not oversee the tests.
As a result of Wolf's actions, transcripts that contained false information were mailed
to other universities on behalf of student athletes, including transcripts for Ricky
Clemons and Randy Pulley that were sent to the University of Missouri. These
transcripts led the universities to believe that the student athletes were academically
eligible to play Division 1 basketball in the NCAA when in fact they were not eligible.
"The crimes of which Mr. Wolf is accused represent not only a transgression against
the federal government, which provides student assistance funds, but a wrong done to student
athletes who deserve to receive a quality education," Melgren said. "This case provides a
disturbing insight into what can happen when coaches or educators fail to adhere to the
highest principles of ethical behavior and fail to put the educational interests of student
athletes first."
Wolf was hired as assistant men's basketball coach at Barton County Community
College in May 1998. In 1999, he became head basketball coach with duties including
coaching the team, teaching courses, serving as an academic advisor and supervising students
in work study programs. His job also required him to prepare student athletes to compete in
the classroom and on the court throughout the academic year, to support the academic success
of student athletes and to oversee the budget as directed by the athletic director. He held the
head coaching position until June 12, 2003 when he was hired as an assistant men's basketball
coach at Murray State University in Murray, Kentucky.
The 36 counts against Wolf are divided as follows;
Counts 1 through 6 are charges of embezzlement from student financial assistance
programs in which Wolf is alleged to have provided or assisted in providing false
information on Free Application for Financial Student Aid forms on behalf of athletes
Jason Carter, Carlton Baker and Eric Washington.
Counts 7 through 22 are charges of embezzlement from student financial assistance
programs in which Wolf is alleged to have obtained Federal Work Study funds for
athletes he supervised including Eric Washington, Jason Carter and Justin Rose even
though the athletes did not perform the work for which they were paid.
Count 23 and 24 are charges of theft of institutional funds totaling $71,981.75 in
campus employment funds and $17,633.60 in Federal Work Study funds.
Counts 25 and 26 are charges of bank fraud in which Wolf allegedly presented three
Pell grant checks bearing forged player signatures to financial institutions.
Counts 27 charges mail fraud and denial of the right to honest services that Wolf
was expected to provide to Barton County Community College and San Jose State
University. In this counts, Wolf is accused of causing Barton County Community
College to receive a certificate falsely representing that student athlete Eric
Washington had satisfactorily completed a course of study called General High
School Education offered by Home Study Career.
Counts 28 and 29 it is charged that as a result of Wolf's actions transcripts
containing false information on the academic progress of Carlton Baker and Eric
Washington were sent to San Jose State University, which would give the university
the false impression that they were academically eligible to play.
Counts 30 through 34 are charges of mail fraud and the denial of the right to honest
services that Wolf was expected to provide to Brigham Young University. In these
counts, Wolf is accused of providing false certification that athlete Ricky Clemons
had been closely supervised while taking tests for correspondence course credit.
Counts 35 and 36 are charges of mail fraud and the denial of the right to honest
services in which as a result of Wolf's academic fraud the University of Missouri
received academic transcripts for Ricky Clemons and Randy Pulley that contained
false information.
A 37th count seeks the forfeiture of $89,615.35 that Wolf is accused of having
obtained in counts 23 and 24.
If convicted, Wolf faces up to five years in federal prison and a $20,000 fine on
counts 1 through 6, 8 through 15, 17 through 19, 21 and 22; up to one year in prison and a
$5,000 fine on counts 7, 16 and 20; up to 10 years and a fine of $250,000 on counts 23 and
24; up to 30 years and a $1 million fine on counts 25 and 26; and up to five years in prison
and a $250,000 fine on counts 27 through 36. In counts 27 through 36, if the crimes
occurred on or after July 30, 2003 the maximum penalty would be up to 20 years and a
$250,000 fine.
The case was investigated by the U.S. Postal Inspection Service and the U.S.
Department of Education, Office of Inspector General.
A complete copy of the indictment against Wolf will be made available on the U.S.
Attorney's Web site at www.usdoj.gov/usao/ks/.
As in any criminal case, a person is presumed innocent until and unless proven guilty.
The charges filed merely contain allegations of criminal conduct.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov